           OFFICE OF JUSTICE PROGRAMS
     STATE AND LOCAL DOMESTIC PREPAREDNESS
                GRANT PROGRAMS

                               EXECUTIVE SUMMARY

       The Department of Justice administers grants to state and local
agencies to enhance their ability to respond to terrorist acts. These
domestic preparedness grant programs were initiated pursuant to the Anti-
Terrorism and Effective Death Penalty Act of 1996, which tasked the
Attorney General to work in consultation with the director of the Federal
Emergency Management Agency to provide grants for specialized training
and equipment to metropolitan fire and emergency service departments. In
April 1998 the Attorney General delegated authority to the Office of Justice
                                                                   1
Programs (OJP) to administer $12 million in fiscal year (FY) 1998 funds for
grants to local responders. The grant program was implemented by OJP’s
Office for Domestic Preparedness (ODP). Through January 15, 2002, the
ODP has awarded grants totaling about $149 million — $101.7 million to 257
grantees for equipment and $47.1 million to 29 grantees for training.

      We reviewed ODP operations through January 2002 and the grant
amounts expended through September 2001. We also performed on-site
reviews at 13 grantees and 3 training organizations, and analyzed responses
to a questionnaire on the quality of training received.

      In brief, we found that while the ODP has awarded about $149 million
for specialized equipment and training since inception of the program, grant
funds were not awarded quickly, and grantees were very slow to spend
available monies. As of January 15, 2002, more than half of the total funds
appropriated for the grant program from FY 1998 through FY 2001 —
$141 million out of $243 million — still had not been awarded. About
$65 million in grant funds awarded was still unspent. Also, we found that
nearly $1 million in equipment purchased with grants was unavailable for
use because grantees did not properly distribute the equipment, could not
locate it, or had been inadequately trained on how to operate it. Although,
the grantees we contacted were satisfied with the overall quality of federally
funded training, we found that the ODP had not developed performance
measures for evaluating whether the program improved grantees’ capability
to respond to terrorist acts.

      We made six recommendations to the Assistant Attorney General, OJP
to: (1) continue with current efforts to ensure that states submit
applications for funds from prior appropriations, and establish controls to
1
 Congress’s first appropriation to the Department of Justice for domestic preparedness grants was
made on November 26, 1997.
ensure that applications for future funding are submitted as expeditiously as
possible; (2) establish controls to ensure grantees use available funds as
quickly as possible; (3) ensure that grantees properly distribute and
maintain specialized equipment, and obtain adequate training to operate it;
(4) remedy $870,899 in questioned costs for equipment that was
unavailable or unusable; (5) ensure grantees conduct or participate in
exercises to maintain their state of readiness; and (6) develop performance
standards in keeping with the intent of the Government Performance Results
Act for evaluating whether grant support is improving grantees’ capability to
respond to terrorist incidents.

     The details of our work are contained in the Findings and
Recommendations section of the report. Our audit objectives, scope, and
methodology are contained in Appendix I.




                                    - ii -
                             TABLE OF CONTENTS
                                                                                           Page

INTRODUCTION ..............................................................................       1
  Background ..................................................................................   1
  Domestic Preparedness Grant Programs............................................                4
  Training Sources............................................................................    5
  Prior Related Audit Reports and Congressional Testimony ....................                    7

FINDINGS AND RECOMMENDATIONS............................................... 8

   IMPROVEMENTS ARE NEEDED TO ENSURE PROGRAM FUNDS
     ARE USED TIMELY AND EFFECTIVELY .............................................. 8
       Award and Expenditure of Grant Funds ........................................ 8
       Equipment ............................................................................. 12
       Training................................................................................. 14
       Readiness Assessments ........................................................... 17
       Compliance with the Government Performance and
         Results Act (GPRA)............................................................... 17
       Conclusion ............................................................................. 18
       Recommendations .................................................................. 18

OTHER MATTERS ........................................................................... 20

STATEMENT ON MANAGEMENT CONTROLS...................................... 21

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ...... 22

APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY................ 23

APPENDIX II - SCHEDULE OF DOLLAR-RELATED FINDINGS ............ 25

APPENDIX III – SUMMARY OF TRAINING SURVEY NARRATIVE
  RESPONSES, BY PROVIDER......................................................... 26

APPENDIX IV – TYPES OF DOMESTIC PREPAREDNESS
  EQUIPMENT................................................................................ 32

APPENDIX V – OFFICE OF JUSTICE PROGRAMS
  RESPONSE TO THE DRAFT REPORT ............................................. 33

APPENDIX VI – OFFICE OF THE INSPECTOR GENERAL, AUDIT
  DIVISION, ANALYSIS AND SUMMARY OF ACTIONS
  NECESSARY TO CLOSE THE REPORT ............................................ 37
                           INTRODUCTION
Background

      In its Fiscal Year (FY) 2000 Performance Report and FY 2002
Performance Plan, the Department of Justice (Department) recognized that
the United States Government would never be able to prevent all acts of
terrorism. Thus, the Department decided to focus on developing “maximum
feasible capacity” — i.e., doing everything within its power to counter
terrorist threats and minimize terrorist damage. This focus, which evolved
in the wake of terrorist acts in the 1990’s such as bombings of the Alfred P.
Murrah Federal Building in Oklahoma City and at the Olympic Games in
Atlanta, is crucial in light of the terrorist attacks that occurred on September
11, 2001.

      On July 15, 1996, President Clinton signed Executive Order 13010
establishing the President’s Commission on Critical Infrastructure Protection
(Commission). The Commission was chartered to conduct a comprehensive
review and recommend a national policy for protecting critical infrastructures
and assuring their continued operation. In its October 1997 report, “Critical
Foundations — Protecting America’s Infrastructure,” the Commission
recognized that “…emergency services are generally ill-prepared to deal with
chemical and biological attacks. Few ‘First Responders’ — fire fighters,
police, and paramedics — are adequately trained to treat attack victims.
Protective gear for first responders and equipment for decontamination are
available but costly. Medical treatments, such as atropine, are in limited
supply.” Consequently, the Commission recommended that first responders
receive additional equipment and training to identify, detect, and manage
Weapons of Mass Destruction incidents.

       Legislation supporting the Department’s anti-terrorism efforts began
with the Anti-Terrorism and Effective Death Penalty Act (Act) of 1996, which
authorized: (1) the Office of Justice Programs (OJP) to undertake the
Metropolitan Firefighter and Emergency Medical Services Program, (2) the
expenditure of the Edward Byrne Memorial State and Local Law Enforcement
Assistance Program funds for counter-terrorism purposes, and (3) the
National Institute of Justice to undertake research and development in
technologies to be used in counter-terrorism efforts. Pursuant to the Act the
Attorney General was tasked to work in consultation with the director of the
Federal Emergency Management Agency to make grants to provide
specialized training and equipment to enhance the capability of metropolitan
fire and emergency service departments to respond to terrorist attacks. The
Department’s appropriations for FY 1998 provided $12 million for the OJP to
initiate assistance program for local responders.



                                     -1-
      In April 1998, the Attorney General delegated authority to the OJP to
provide grants to help state and local police and fire departments prepare for
and respond to terrorist incidents. The Assistant Attorney General, OJP,
subsequently established the Office for State and Local Domestic
                                         2
Preparedness Support (ODP) within OJP.

      The mission of the ODP is to develop and implement a national
program to enhance the capability of state and local agencies to respond to
domestic terrorism. The grants fund training and help purchase specialized
equipment to respond to domestic terrorism involving weapons of mass
destruction such as chemicals, biological agents, and radiological and
explosive devices.

      The ODP is organized along the following five functional areas: Office
of the Director, State and Local Program Management Division, Training and
Technical Assistance Division, Exercise Division, and The Center for Domestic
Preparedness. A description of each area follows:

    •   The Office of the Director is responsible for the overall strategic
        direction, programmatic and policy development, and implementation
        of a national Domestic Preparedness Program.

    •   The State and Local Program Management Division serves as ODP’s
        primary liaison point with the states. Division staff works with states
        to develop and implement their Three-Year Statewide Domestic
        Preparedness Strategic Plans, and manage the State Domestic
        Preparedness Equipment Program, which provides funds for the
        procurement of specialized response equipment. The Division also
        manages ODP’s Pre-Positioned Equipment program, and provides
        specialized training on the calibration, use, and maintenance of
        Weapons of Mass Destruction response equipment.

    •   The Training and Technical Assistance Division administers the State
        and Local Domestic Preparedness Training and Technical Assistance
        Program. The program develops and delivers direct training and
        technical assistance to state and local jurisdictions to enhance their
        capacity and preparedness to respond to domestic incidents.

    •   The Exercises Division administers the State and Local Domestic
        Preparedness and National Exercise Programs. The Branch provides
        technical assistance to state and local jurisdictions on exercise
        planning and execution of state and local level exercises, and directs
        national-level terrorism response exercises.

2
  The Office for State and Local Domestic Preparedness Support was later renamed the Office for
Domestic Preparedness.

                                               -2-
    •   The Center for Domestic Preparedness (CDP), located in Anniston, AL,
        operates as an advanced field-training center for the ODP. The CDP
        provides hands-on specialized training to state and local emergency
        responders to manage and remediate incidents involving Weapons of
        Mass Destruction.

      In October 1998, Congress directed the Attorney General to undertake
a comprehensive assessment of the capabilities of state and local emergency
response agencies to respond to incidents of domestic terrorism. The House
report, which accompanied the Justice Department’s Fiscal Year 1999
Appropriations Act, required the OJP to examine the requirements of state
and local agencies to respond to incidents involving chemical and biological
agents, radiological, nuclear, and explosive devices, and other Weapons of
Mass Destruction.

      In June 1999, the ODP issued the Phase I report of its study of state
and local needs to respond to domestic terrorism involving Weapons of Mass
Destruction. The report reviews prior needs assessments and related efforts
regarding state and local preparedness for Weapons of Mass Destruction
incidents.

       In December 1999, the ODP issued the Phase II report of its study.
This report was a more comprehensive and complete assessment that
collected information from a demographically and geographically diverse set
of communities and a greater variety of first responders. The studies
indicated that each jurisdiction required an individual program to address its
needs that, public health agencies must be incorporated into any
preparedness program, and that basic familiarity with Weapons of Mass
Destruction was needed to understand the importance of an integrated
response.

       By the end of fiscal year (FY) 2001, the ODP had awarded grants
                             3
totaling about $151 million to cities, counties, and states, and for other
activities to support the national domestic preparedness program. At the
time, the ODP had spent about $8 million in operating costs, including the
cost of site visits to grantees. Operating costs represented about 5.3
percent of total program costs.

      The Department’s FY 2000 – FY 2005 Strategic Plan includes the
following strategy: “Ensure domestic preparedness through training,
assistance, and operational support.” The Department’s primary program
for implementing this strategy is administered by OJP through the ODP.
Through a combination of federally funded training and technical assistance,
3
   In addition to the $149 million awarded for equipment and training, this amount includes funding
for additional activities such as technical assistance programs, local fire and emergency services
training, and the Nunn-Lugar-Domenici preparedness program.

                                                -3-
equipment acquisition grants, and support for state and local exercise
planning, the ODP’s intent is to enhance the ability of state and local
jurisdictions to mitigate the consequences of domestic terrorism.

Domestic Preparedness Grant Programs

     The ODP has developed the following domestic preparedness grant
programs to further its mission:

State and Local Domestic Preparedness Equipment Support Program
(SLDPESP). Pursuant to the Anti-Terrorism and Effective Death Penalty Act
of 1996, the Department worked with the Federal Emergency Management
Agency to provide training and equipment grants to help metropolitan fire
and emergency service departments respond to terrorist attacks. In FY
1998, Congress appropriated $12 million for grants to state and local
governments to acquire personal protective gear, chemical/biological
detection equipment, decontamination facilities, and communications
devices. The Attorney General delegated grant management to OJP, which
established the ODP to administer the program. The Attorney General also
assigned OJP the responsibility for coordinating course training and
curriculum development. The OJP targeted the nation’s 120 largest
metropolitan jurisdictions that were eligible to apply for funding. During its
first year, however, program funds were sufficient to permit grants to only
41 jurisdictions, which OJP selected according to its assessment of the
grantees’ vulnerability to terrorist attack.

County and Municipal Agency Domestic Preparedness Equipment
Support Program. Under this program, OJP, in coordination with the
                                                4
National Domestic Preparedness Office (NDPO) (part of the Federal Bureau
of Investigation (FBI)), provided funds to targeted jurisdictions for
equipment purchases to improve their ability to respond to terrorist
incidents. Beginning in FY 1998, the OJP initiated a limited equipment
acquisition program that formed the basis for this equipment program. In
addition to the $12 million funded for the SLDPESP above, grants totaling
about $31 million were awarded through June 2001 to 156 of the nation’s
                                                                     5
largest metropolitan jurisdictions. As part of OJP’s first responder domestic
preparedness initiative, a FY 1999 Emergency Supplemental Appropriations
Act provided additional funding to assist state and local first responders.
Congress authorized OJP to distribute FY 1999 funding to provide the


4
  The NDPO coordinates federal government Weapons of Mass Destruction preparedness efforts aimed
at enhancing state and local first responder capacity.
5
  First responders are firefighters, law enforcement, emergency medical services, hazardous
materials personnel, emergency managers, public health personnel, public works personnel and
potentially many other officials.

                                              -4-
maximum number of communities with a basic defensive capability to
respond to domestic terrorism.

FY 1999 State Domestic Preparedness Equipment Program. Similar to
FY 1998’s SLDPESP, this program provided funding for communication
devices, personal protective gear, decontamination facilities, and chemical,
biological, and radiological detection equipment. However, unlike the
SLDPESP, these grants were to be awarded to a state-level administrative
agency in each of the 50 states. Receipt of funds was contingent on a
state’s submission of a needs assessment and a 3-year statewide domestic
preparedness strategy (strategy). The needs assessment required each
state to assess its equipment needs, first responder training, and other
resources to respond to the use of Weapons of Mass Destruction. The needs
assessment formed the basis of the strategy, which identified how each state
would target grant funds received, and also provided OJP with information
on how to target first responder training and other resources available
through the ODP over the next 3 years. Congress appropriated about
$51.8 million for states under this program: $8 million to support state
planning efforts and $43.8 million to support equipment purchases.

FY 2000 State Domestic Preparedness Equipment Program.
Under this program, OJP, in coordination with the FBI’s NDPO, provides
financial assistance directly to states. Congress appropriated about $72.5
million for states under this program: about $700,000 to support state
planning efforts and $71.8 million to support equipment purchases. This
program also provides assistance to the District of Columbia, Guam,
American Samoa, the Northern Mariana Islands, the U.S. Virgin Islands, and
the Commonwealth of Puerto Rico. Receipt of program funds is contingent
upon the submission of a grant application and the development of a needs
assessment and a two-year strategy.

Training Sources

       The National Domestic Preparedness Consortium (consortium) assists
the OJP and ODP in the development, implementation, and delivery of
training and situational exercises for emergency first responders. The
consortium also assists in providing technical assistance to guide, advise,
and share expertise and information required to make critical threat
assessments and response planning decisions at the local responder levels.
The consortium was formally organized on June 11, 1998. The following is a
brief description of the consortium members and the types of training they
provide:

  •   The Center for Domestic Preparedness (CDP). The CDP provides


                                   -5-
    hands-on specialized training to state and local emergency responders
    in the management and remediation of Weapons of Mass Destruction
    incidents. Located at the former home of the U.S. Army Chemical
    School, Fort McClellan, AL, the CDP conducts live chemical agent
    training for the nation’s civilian emergency response community. As a
    division of the ODP, the CDP coordinates with other training programs
    in the ODP’s Training and Technical Assistance Division, including
    procurement, property transfer, course development, and interagency
    agreements.

•   Texas A&M University’s National Emergency Response and
    Rescue Training Center. Texas A&M delivers a set of courses to
    prepare public officials, emergency medical services, law
    enforcement, fire protection, and public works for the threat posed
    by Weapons of Mass Destruction. Courses are developed and
    designed to provide each specific segment of the emergency
    response community with the tools needed to accomplish its role in
    the event of a Weapons of Mass Destruction incident. Additionally,
    Texas A&M has developed an Interactive Internet Weapons of Mass
    Destruction Awareness Course for emergency responders. Texas
    A&M also provides technical assistance to state and local
    jurisdictions in the development of Weapons of Mass Destruction
    assessment plans.

•   New Mexico Institute of Mining and Technology (NMIMT),
    National Energetic Materials Research and Testing Center.
    The NMIMT offers live explosive training including the use of field
    exercises and classroom instruction. It is the lead consortium
    partner for explosives and firearms, live explosives, and incendiary
    devices training.

•   Louisiana State University (LSU) Academy of Counter-
    Terrorist Education. LSU provides training to law enforcement
    agencies and focuses its efforts on the delivery of two courses:
    (1) Emergency Response to Terrorism: Basic Concepts for Law
    Enforcement, and (2) Emergency Response to Domestic Biological
    Incidents.

•   U.S. Department of Energy’s Nevada Test Site National
    Exercise, Test, and Training Center (NTS). The NTS conducts
    large-scale field exercises using a wide range of live agent stimulants
    as well as explosives. It also develops and delivers a
    Radiological/Nuclear Agents Course. In coordination with the ODP, the
    NTS is establishing the Center for Exercise Excellence (Center). The
    Center will allow the NTS to train jurisdictions in the planning and


                                  -6-
      conduct of exercises tailored to the unique threats faced by
      participating jurisdictions. The Center will provide a new component of
      the overall exercise training program, meeting those special exercise
      needs as the state and local jurisdictions define their priorities.

      Additionally, the ODP provides training and technical assistance
      through its work with the U.S. Army’s Pine Bluff, Arsenal, the
      Metropolitan Fire Fighters and Emergency Medical Services Program,
      the National Sheriff’s Association, and other public and private
      organizations.

Prior Related Audit Reports and Congressional Testimony

       The General Accounting Office (GAO) issued a letter report,
GAO/NSIAD-99-3, on November 12, 1998, entitled Combating Terrorism:
Opportunities To Improve Domestic Preparedness Program Focus and
Efficiency. The report, which focused on assistance provided by the
Department of Defense (DOD) to local agencies, indicated that DOD’s
assistance was well received by local agencies, but that anti-terrorism efforts
overall were fragmented and could be made more efficient.

      The GAO issued a second letter report, GAO/NSIAD-00-64, on
March 21, 2000, entitled Combating Terrorism: Need to Eliminate Duplicate
Federal Weapons of Mass Destruction Training. The report focused on
federal providers, coordination of training, and ways to improve the federal
government’s role in training to respond to Weapons of Mass Destruction.
Similar to findings in its 1998 report, GAO indicated that training programs
were not well coordinated. In response to requests from the first responder
community, the Department established the National Domestic Preparedness
Office, which provides an interagency forum for coordinating federal
assistance to state and local emergency responders.

       GAO officials testified before the House Committee on Transportation
and Infrastructure’s Subcommittee on Oversight, Investigations, and
Emergency Management on April 6, 2000, that a major deficiency in federal
efforts to combat terrorism was the lack of linkage between the terrorist
threat, a national strategy, and agency resources. The GAO stated that the
multitude of federal assistance programs had led to confusion on the part of
state and local officials. However, the GAO stated that the National
Domestic Preparedness Office was designed to provide “one stop shopping”
to state and local officials who needed assistance.




                                     -7-
-8-
              FINDINGS AND RECOMMENDATIONS
      IMPROVEMENTS ARE NEEDED TO ENSURE PROGRAM FUNDS
      ARE USED TIMELY AND EFFECTIVELY

      We found that ODP grant program funds were not awarded promptly
      and grantees did not spend funds within a reasonable time after the
      funds were awarded. As of January 15, 2002, over $141 million of the
      $243 million in funds appropriated for equipment from FY 1998
      through FY 2001 had not been awarded. Furthermore, about $65
      million in grant funds awarded to grantees was unspent. Also, nearly
      $1 million in equipment purchased by the grantees was unavailable for
      use because grantees did not properly distribute the equipment, could
      not locate it, or had been inadequately trained on how to operate it.
      Two grantees we reviewed had not participated in or conducted
      exercises in which their readiness could be assessed. We also found
      that the ODP had not developed methods and standards in accordance
      with the Government Performance and Results Act for evaluating
      whether federal support improved grantees’ capability to respond to
      terrorist incidents.

Award and Expenditure of Grant Funds

       We examined grants awarded and expended from FY 1998 through
January 15, 2002. The ODP awarded funds after reviewing an applicant’s
existing resources and their narratives explaining their potential as targets of
terrorism. On the basis of our review of applications, we determined that
the ODP’s grant award decisions for equipment were consistent with the
ODP’s published criteria. Also, by the end of FY 2001, the ODP’s
administrative costs were $8 million. In our judgment, this amount was
reasonable, as it represented only 5.3 percent of total program costs of
about $151 million in awards to cities, counties, and states, and for other
domestic preparedness activities.

       However, we found that the ODP did not award grant funds until 7 to
29 months after they were appropriated. As of January 15, 2002, only $4.9
million of the $72.5 million in FY 2000 funds were awarded, and only about
$2.9 million of the $75.7 million in FY 2001 funds had been awarded. This
occurred in part because of delays by states in addressing a Congressional
requirement for each state to develop a comprehensive state-level domestic
preparedness plan. The ODP did not set a deadline for submission of the
state plans.




                                     -9-
       In addition, we found that of $101.7 million awarded, only $36.7
million or 36 percent had been spent by grantees, leaving an unexpended
balance of about $65 million. Among the grantees with the largest
unexpended balances were those that served some of the most populous
metropolitan areas in the country -- New York City, Chicago, and Detroit.

      The appropriations, grant amounts, dates awarded, and expenditures
for the ODP’s Equipment Grant Programs are summarized in the table below:

            Appropriations, Awards and Unexpended Funds
                            for Equipment



                Date        Amount                  Date(s) of            Amount            Amount
             Appropriated Appropriated               Awards              Awarded6         unexpended7

FY 1998         11/26/97      $ 12,000,000            10/1/98         $ 11,852,557       $         984,448

FY 1999         10/21/98      $ 82,800,000       6/10/99 – 4/1/01 $ 81,993,242           $    56,158,077

FY 2000         11/29/99      $ 72,525,000 10/1/99 – 9/19/01 $ 4,910,370                 $     4,849,935

FY 2001         12/21/00      $ 75,726,000 7/1/01 – 11/1/01           $ 2,964,700        $     2,964,700

    Total                     $243,051,000                            $ 101,720,869      $    64,957,160
Source: Office of Justice Programs

      Details of the awards and expenditures for each year, and explanations
for the award dates, follow:

       FY 1998: Public Law 105-119, enacted November 26, 1997,
appropriated $32.7 million for counter-terrorism. Of this amount, $12
million was designated for local agencies to purchase specialized equipment
under the State and Domestic Preparedness Equipment Support Program.
The Department did not award any funds to local agencies until October
1998 because grantmaking authority was not given to OJP until April 1998.
After OJP established the ODP to administer the grants, it then took five
months to contact potential grantees, review applications, and award the
funds.


6
    ODP data as of 1/15/02.
7
  Data based on grantees’ latest Financial Status reports, quarter ending 9/30/01, due at OJP on
November 14, 2001.

                                               - 10 -
      As noted in the table above, grantees were slow to spend their grant
money. Reasons given by grantees were local “red tape,” which made
purchasing difficult, and backlogs at suppliers. As of January 15, 2002,
Financial Status Reports (FSRs) submitted by grantees indicated that
approximately $1 million of the $11.9 million in FY 1998 funds awarded still
had not been spent.

       FY 1999: Public Law 105-277, signed on October 21, 1998, provided
about $43.8 million and $31 million for grants to states and municipalities,
respectively, to purchase equipment. An additional $8 million was available
for grants to the states for planning. Again, we found that the ODP failed to
dispense the funds in a timely manner. The start of the award periods
ranged from 7 to 29 months after the funds were appropriated. This
occurred in part because of delays in addressing a congressional
requirement for each state to develop a comprehensive state-level domestic
preparedness plan, and for OJP to submit to the Committees on
Appropriations, no later than June 1, 1999, a plan for distributing FY 1999
funding. In the interim, the ODP developed the “FY 1999 State Program
Guidelines and Application Kit” and the “Assessment and Strategy
Development Tool Kit.” Once the program was developed, the plan was sent
from OJP to the Justice Management Division and the Office of Management
and Budget, and then to Congress. Although Congress established the
requirement for state plans, the ODP did not establish a deadline for states
to submit plans. A grants management official also told us that once
applications were submitted, the ODP had to contact grantees to obtain
missing documentation, clarify application entries, and revise equipment
lists.

      As with the FY 1998 monies, grantees did not spend available funds
promptly. According to the FSRs submitted as of January 15, 2002, more
than $56 million of the $82 million awarded had not been spent –
$9.4 million available to counties and municipal agencies and $46.7 million
available to states.

       FY 2000: Public Law 106-113, signed on November 29, 1999,
appropriated $72.5 million for equipment purchases under the FY 2000 State
Domestic Preparedness Equipment Program. As of January 15, 2002, OJP
had awarded only six grants, totaling $4.9 million. According to an ODP
grants management official, awards were not made quickly because
congressional staff approval for offering grants to states were not approved
until February 2000, and approval for offering grants to the territories was
not approved until August 2000. As with the FY 1999 State Domestic
Preparedness Program, states were required to submit a needs assessment
and a three-year statewide strategy, and this further delayed the grant
award process. Also, of the $4.9 million awarded, only about $60,000 had


                                   - 11 -
been expended as of September 30, 2001.
     FY 2001: Public Law 106-533, signed on December 21, 2000,
appropriated $75.7 million. As of January 15, 2002, only about $3 million
had been awarded because only three states had submitted applications.

      To determine the reasons for the states’ delays in submitting their
applications, we spoke to the ODP Branch Chief. The Branch Chief said that
the states were using the funds made available for planning to assess their
needs and develop a 3-year strategic plan. The FY 1999 equipment funds
can be allocated to local jurisdictions by the state administrative agency
designated by the Governor to apply for and administer these funds
immediately without obtaining the results of the assessments or completing
the strategic plan. However, states cannot apply for FY 2000 or 2001
funding without first completing the assessments and the strategic plans.
When the states complete these requirements they can apply for funding for
both fiscal years using a single solicitation. Public Law 106-553 authorized
the single solicitation that combines both fiscal years. Shortly after the
September 11, 2001, attacks on the World Trade Center and the Pentagon,
the Attorney General sent a letter to state governors urging them to
complete their state needs assessments and statewide strategy plans as
soon as possible, but no later than December 15, 2001. The letter also
offered assistance from the ODP. According to ODP staff, the letter resulted
in 42 states submitting their strategic plans. Of the 42 states, 34 strategic
plans have been approved, 4 are pending approval, and the ODP needs
additional information from the remaining 4.

      The immediate consequence of delays in awarding grants and
spending funds is that grantees do not increase their capability for
responding to terrorist acts as adequately as they could have if the grants
had been disbursed and the money used for its intended purpose. An ODP
Branch Chief commented that the ODP encourages grantees to make
purchases as soon as possible and provides equipment lists to speed up the
acquisition process. The ODP also has interagency agreements with the
Defense Logistics Agency and the Marine Corps Systems Command, both of
which can requisition equipment and have it delivered to the grantee.
Grantees are encouraged but not required to use these services.

      The ODP Branch Chief also commented that local politics often slow
the purchase process because firefighter, law enforcement, emergency
medical, and emergency management officials in a jurisdiction must reach a
                                                 8
consensus on any changes to the equipment list. The ODP requires such
involvement to ensure that grant funds benefit all public safety disciplines

8
  Our audit work did, in fact, indicate that local “red tape” could make purchasing difficult. For
example, city officials in New York, Chicago, and Detroit told us of problems with obtaining accounting
codes or approval from the city council, and in dealing with a time-consuming procurement process.

                                               - 12 -
within a jurisdiction. The official said this may slow the purchasing process,
but it ensures consistency and standardization across a jurisdiction and
prevents buying equipment that will not be used or placed within an agency
that is not equipped to handle it.

       The ODP Branch Chief also said that ODP program managers review
grantee expenditures monthly. If it appears a grantee is unable to spend its
grant funds within the period allowed by the grant, ODP program managers
extend the grant period. The ODP’s program managers also oversee grantee
activity by conducting site-monitoring visits. According to the ODP Branch
Chief, the ODP’s program managers plan one or two monitoring visits per
month for local jurisdiction equipment grants.

      In our judgment, the ODP’s monitoring controls were insufficient to
ensure that grantees spent grant funds promptly. In view of the urgency of
the need to respond effectively to terrorist attack, the ODP needs to
implement more aggressive measures to assist grantees in using available
funds - such as setting timeframes and holding the grantee accountable for
delays in using available funds.

Equipment

       Program funds may be used to purchase equipment for
communications, personal protection, and chemical, biological, and
radiological detection. For the FY 1999 program, the equipment purchased
                                                             9
had to be on the FY 1999 Authorized Equipment Purchase List . In addition,
training in the use of the equipment was available from the ODP or from the
manufacturer.

      We reviewed on site 13 grantees, who spent most of their grant and
who represented a nationwide sample. We found that grant funds were
used to purchase equipment consisting primarily of communication devices,
personal protective gear, monitoring devices, decontamination kits, and
detection equipment. However, some equipment items purchased by 11 of
the 13 grantees would have been unusable in the event of a terrorist attack.
Four grantees kept equipment in storage rather than distributing the items
to locations needing them. Those grantees included Dallas County, TX;
Westchester County, NY; Memphis, TN, and the Massachusetts Emergency
Management Agency, Middlesex County. A Dallas County official told us the
items were stored in the Fire Marshal’s office and would remain there until
all equipment was received and personnel were trained on their use. An

9
  The authorized equipment purchase list was derived from the Standardized Equipment List (SEL),
which was developed by the Interagency Board (IAB) for equipment Standardization and
Interoperability. IAB compiled the SEL on behalf of the National Domestic Preparedness Office to
determine what types of equipment are available to terrorist-incident emergency response teams.

                                             - 13 -
official for Westchester County, NY, stated the equipment was not fully
distributed throughout the county because a distribution plan was still being
finalized. Memphis, TN, was waiting for the delivery of additional equipment
and officials said they preferred to have all equipment in before distributing
any equipment to one unit and not another. Officials from the Westford Fire
Department, Middlesex County, said they were awaiting training on the
stored equipment prior to distribution to the area fire departments. Six
                                                                  10
grantees were unable to locate equipment that had been stored.        At three
locations, grantee staff had not been trained on how to operate the
equipment. At one location, the grantee determined the equipment was
outdated and discarded, but did not replace it.

      The chart on the following page summarizes the grantees, dollar
amount awarded, dollar value of the unusable equipment (amount
questioned), and the reason the equipment was unusable as of the
conclusion of our work on site. See Appendix IV for the listing of types of
equipment that was unusable. We questioned the $870,899 in funds used to
pay for the equipment.




10
   After our on-site reviews at Cobb County and Hillsborough County, grantee staff told us they found
the missing equipment. However, this was not verified by the OIG.

                                               - 14 -
                          UNUSABLE EQUIPMENT PURCHASES

                                       Amount     Amount Reason Equipment
              Grantee                  Awarded   Questioned  Unusable
Dallas County, TX                                              Items not distributed to
                                   $     300,000 $   299,728   locations needing them
Westchester County, NY                                         Items not distributed to
                                   $     550,000 $   238,165   locations needing them.
Memphis, TN                                                    Items not distributed to
                                   $     199,853 $   137,487   locations needing them.
MA Emergency Management
Agency,                                                        Items not distributed to
Middlesex                          $     299,665 $   101,738   locations needing them.
Wayne County, MI                                               Equipment missing, or
                                   $     300,000 $    55,330   staff unable to operate.
Clark County, NV                                               Equipment missing, or
                                   $     400,000 $    32,572   staff unable to operate.
Hillsborough County, FL                                        Equipment not delivered
                                   $     250,000 $     2,674   by vendor, or missing.
Detroit, MI                        $     500,000 $     1,255   Equipment missing.
Tarrant County, TX                                             Equipment outdated and
                                   $     500,000 $     1,132   discarded.
Fairfax County, VA                 $     249,759 $       746   Equipment missing.
Cobb County, GA                    $     113,384 $       72    Equipment missing.
Total                              $ 3,662,661 $     870,899
Source: Office of the Inspector General

Training

       We reviewed 3 training providers on-site and analyzed replies to
questionnaires regarding the quality of training sent to 156 grantees. The
three training providers we reviewed on-site were the CDP at Fort McClellan,
AL; Community Research Associates (CRA) in Champaign, IL and Nashville,
TN; and Texas A&M University’s National Emergency Response and Rescue
Training Center. The survey covered the training providers we reviewed on-
site as well as training conducted by LSU, NMIMT, Pine Bluff Arsenal (PBA),
and the NTS.

      We found that the ODP had not established standards for measuring
                                                                11
the CRA’s and Texas A&M’s performance under their agreements.       Without
such standards, we could not readily determine whether the activities
planned or completed by the CRA or Texas A&M met the objectives in their

11
   The CDP was reviewed during the survey phase as a component of ODP, unlike CRA and Texas
A&M who are grant recipients.



                                            - 15 -
agreements.
       We mailed survey questionnaires to 147 grantees, and we personally
                                                          12
distributed survey questionnaires at 9 of the 13 grantees we reviewed on-
site, thereby covering all 156 grantees. Some grantees duplicated and
distributed the survey questionnaire among their staff, resulting in a total of
168 responses.

      The survey consisted of 19 questions covering 5 areas in which
grantees numerically rated the quality of training received. The scores for
the questions in those five areas were averaged, by provider, on the chart
on the following page. In addition, the survey included a section in which
grantees wrote narratives describing the overall value of the courses taken,
course strengths, and course weaknesses. A summary of the narrative
responses, by provider, is found at Appendix III.




12
    This was not done at Cobb County, GA; Fulton County, GA; Hillsborough County, FL; and Memphis,
TN. These audit sites were reviewed during the survey phase, which preceded the development of the
training survey. Therefore, we sent them the survey during the verification phase.

                                             - 16 -
              SURVEY QUESTIONNAIRE RESULTS, AVERAGED BY PROVIDER



Availability of Classes/Training Site           CDP       CRA    LSU   NMIMT   NTS   PBA TX A&M
Ease of registration process                    4.5        4.6   4.8    4.5    4.0   4.8   4.5
Availability of course when needed              4.4        4.6   4.6    4.4    3.6   4.8   4.1
Convenience of training site to the workplace   3.7        4.6   4.6    3.3    2.6   4.9   4.1
The Instructor(s)
Knowledge of the subject matter                 4.7        5.0   4.4    5.0    4.1   4.9   4.6
Preparedness and organization                   4.6        5.0   4.4    4.8    4.6   5.0   4.4
Ability to explain concepts and present
materials                                       4.5        5.0   4.2    4.8    4.1   4.9   4.3
Ability to answer questions                     4.5        5.0   4.4    4.9    4.3   4.9   4.4
Course Materials
Quality of printed materials and visuals        4.4        4.4   4.6    4.7    4.6   4.8   4.6
Simulations used in demonstrations/exercises    4.3        4.7   4.5    5.0    4.1   4.6   4.5
Course Content
Achievement of course objectives                4.5        4.6   4.2    4.6    3.3   4.8   4.3
Relevance to the grantee’s needs                4.3        4.4   4.6    4.5    3.0   4.9   4.6
Appropriateness of content to the grantee
staff’s level of experience/understanding       4.2        4.3   3.8    4.6    2.7   4.8   4.3
Overall effectiveness of hands-on activities    4.2        4.0   4.3    4.6    3.6   4.4   4.1
Appropriateness of course length                4.2        4.3   3.8    4.3    4.0   4.1   4.3
Overall Assessment
Overall assessment of the class and course
content                                           4.5      4.6   4.4    4.7    3.4   4.9   4.3
Willingness to recommend the course to others     4.5      4.9   4.4    4.7    3.3   4.9   4.3
Level of preparedness, prior to the class, to
address a domestic terrorism emergency            3.5      2.7   4.6    3.5    3.6   4.0   3.6
Level of preparedness, after taking the class, to
address a domestic terrorism emergency            4.3      4.3   4.8    4.3    3.9   4.4   4.3
How well the course met the grantee’s
objective                                         4.3      4.6   4.0    4.7    3.4   4.8   4.3
 Source: Replies to questionnaires sent to grantees

      Rating scale
      0   =   don’t know
      1   =   poor
      2   =   fair
      3   =   neutral
      4   =   good
      5   =   excellent

              The grantees answered the survey questions using a rating scale of
      zero to five points. Overall, grantees were satisfied with the quality of
      training received from the seven providers. Scores ranged from 3.4 points
      to 4.9 points on the overall assessments of the classes and course content.
      In addition, all grantees rated themselves higher on their level of
      preparedness after taking the classes, with increases in scores ranging from

                                                      - 17 -
0.2 points to 1.6 points.
       We asked the grantees to identify the greatest strengths of the
courses. Examples included: (1) knowledgeable instructors, (2) good
presentations, (3) hands-on scenarios, and (4) gain of a greater awareness
of various types of weapons of mass destruction, including chemical and
biological threats. In particular, grantees said that the different types of live
demonstrations provided were especially effective in preparing them for an
incident of domestic terrorism. We also asked them to list the most
significant weakness of the courses. Examples included: (1) more field
training is needed, (2) more actual case studies should be reviewed, (3) the
courses should be lengthened, (4) the target student base should be more
focused, and (5) courses should be offered more often.

Readiness Assessments

      One of the goals of the ODP is to provide support to grantees through
exercise direction and planning to help them prepare for actual terrorist acts.
The ODP’s Phase I report submitted to Congress June 1999 concluded that
frequent, practical exercises involving the integration of all first responders
are critical elements for Weapons of Mass Destruction preparedness.
However, funding shortages often prevented exercises by local jurisdictions.
Of the 13 grantees we reviewed on-site, 2 (Cobb County, GA, and Memphis,
TN) had neither participated in nor conducted exercises in which
assessments could be made of their ability to respond to terrorist incidents.
A Cobb County official stated they had not conducted any exercises but were
planning to do so in the near future. The Memphis, TN, official stated that
an assessment should not be the only basis for measuring preparedness. He
said that response agencies get the chance to use much of the equipment
that would be used in a terrorist incident during their regular response calls.
He indicated that exercises would be conducted in the near future.

Compliance with the Government Performance and Results Act
(GPRA)

       The GPRA requires federal agencies to develop a strategic plan that
identifies agencies’ long-term goals, and annual performance plans that
identify the measurable performance goals that agencies will accomplish
each year. We found that the ODP’s performance plan indicators included
the number of law enforcement officers and trainers trained, and the number
of first responder teams provided basic and advanced level of equipment
through grants. However, the ODP had not developed methods and
standards for evaluating whether the support provided to communities
actually improved their capacity to respond to terrorist incidents. Without
such measurements, it is impossible to determine the extent to which
program goals are actually being achieved.


                                     - 18 -
        The ODP has advised the OIG that they launched a strategic planning
initiative, based on the GPRA, in October 2001. The resulting Strategic Plan
and Communication Plan will be finalized in February 2002, and an interim
statement of the ODP’s Strategic Direction is in the process of being
finalized.

Conclusion

       The ODP’s assistance has resulted in substantial increases in the level
of equipment and training available to state and local governments. As of
January 15, 2002, grantees spent a total of $36.7 million. However, over
$141 million in appropriated funds from FY 1998 through FY 2001 had not
been awarded. This occurred in part to delays in addressing a Congressional
requirement for each state to develop a comprehensive state-level domestic
preparedness plan, and because the ODP did not set a deadline for
submission of the state plans. To remedy this, the Attorney General wrote
to state governors requesting they submit their state needs assessments
and statewide strategic plans no later than December 15, 2001. In addition,
we found that grantees had not yet spent about $65 million that had been
awarded. Delays in spending could hurt the ability of state and local entities
to respond to terrorist attacks. In our judgment, more aggressive oversight
and guidance by the ODP could help ensure that grantees make full use of
available federal funds. We also found discrepancies that could adversely
affect the response capability of 11 of the 13 grantees we reviewed. About
$871,000 in equipment purchased was unusable because grantee staff could
not locate the items in their inventory, had not distributed the items to the
locations where they were needed, or were inadequately trained on its
operation. In addition, two of the grantees we reviewed had not conducted
or participated in exercises in which their readiness for a terrorist incident
involving Weapons of Mass Destruction could be assessed. Finally, the ODP
had not established performance measures, in keeping with the intent of the
GPRA, to assess the capability of agencies to respond effectively to terrorist
acts.

Recommendations

We recommend the Assistant Attorney General, OJP:

1.    Continue with current efforts to ensure that states submit applications
      for funds from prior appropriations, and establish controls to ensure
      that applications for future funding are submitted as expeditiously as
      possible. Controls could include application deadlines and follow-up on
      late submissions.


                                    - 19 -
2.     Establish controls to ensure grantees use available funds as quickly as
       possible, such as setting timeframes for spending the funds and
       holding grantees accountable for delays.

3.     Ensure that grantees properly distribute and maintain specialized
       equipment, and obtain adequate training to operate it.

4.     Remedy $870,899 in questioned costs for equipment that was
                                13
       unavailable or unusable.

5.     Ensure grantees conduct or participate in exercises to maintain their
       state of readiness.

6.     Develop performance standards in keeping with the intent of the GPRA
       for evaluating whether grant support is improving grantees’ capability
       to respond to terrorist incidents.




13
   Questioned costs may be remedied by offset, waiver, recovery of funds, or the provision of
supporting documentation.

                                               - 20 -
                         OTHER MATTERS
       The purpose of this section is to bring to the attention of ODP
management other matters that we noted during the audit. These matters
are not part of the audit report’s Findings and Recommendations section
because they are not directly related to the audit objectives or are less
significant. Thus, no response is necessary since this section is for
informational purposes only.

Equipment Lists. Inventory lists maintained by 2 of the 13 grantees we
reviewed on-site were incorrect. At one grantee (Detroit, MI) 1,130 items
totaling $158,029 were at locations other than those indicated on the
inventory list. Another grantee’s (Clark County, NV) inventory list did not
include a “date received” column, and we found discrepancies in the number
of items distributed to the agency utilizing the equipment. However, the
total number of items received was correct. Property records should include
the identification number and the location of the equipment. A control
system should be developed to ensure adequate safeguards to prevent loss,
damage, or theft of the property.

End Dates of Grant. One grantee (Detroit, MI) exceeded the award period
by 10 months. The award end date was March 31, 2000, but purchase
orders we reviewed were dated May 10, 2000, and June 21, 2000. Funds
were not reimbursed to the grantee until January 12, 2001. This occurred
because the ODP did not respond in writing to the grantee to confirm or
deny its requests. The grantee had notified the ODP verbally and confirmed
the changes in writing. However, we did not find any grant adjustment
notices or letters of confirmation from the ODP to the grantee to authorize
the changes.




                                   - 21 -
    STATEMENT ON MANAGEMENT CONTROLS

     In planning and performing our audit, we considered the ODP’s
management controls for the purpose of determining our auditing
procedures. This evaluation was not made for the purpose of providing
assurance on the ODP’s management controls as a whole. We noted,
however, certain matters that we consider to be reportable conditions under
Government Auditing Standards.

       Reportable conditions involve matters coming to our attention relating
to significant deficiencies in the design or operation of management controls
that, in our judgment, could adversely affect the ODP’s ability to effectively
manage the program. As discussed in the Findings and Recommendations
section of this report, we found that: (1) grants were not awarded and
spent promptly; (2) federally funded equipment at 11 grantees was not
properly distributed, was missing, or their users were not adequately trained
on their operation; (3) two grantees had not conducted readiness
assessments; and (4) the ODP had not established performance measures in
keeping with the intent of the Government Performance and Results Act.
Also, as discussed in the OTHER MATTERS section, we noted that inventory
lists at two grantees were incorrect and one grantee had exceeded the end
date of its grant.

       Because we are not expressing an opinion of the ODP’s management
controls as a whole, this statement is intended solely for the information and
use of the ODP in managing the program. This restriction is not intended to
limit the distribution of this report, which is a matter of public record.




                                    - 22 -
         STATEMENT ON COMPLIANCE WITH LAWS
                  AND REGULATIONS
      We have audited the ODP’s grant programs for assisting grantees to
prepare for acts of domestic terrorism. The audit covered the period
October 1997 through January 2002, and included a review of selected
grantees and training providers. The audit was conducted in accordance
with generally accepted Government Auditing Standards.

      In connection with the audit and as required by the standards, we
reviewed procedures, activities, and records to obtain reasonable assurance
about the ODP’s compliance with laws and regulations that, if not complied
with, we believe could have a material effect on the program operations.
Compliance with laws and regulations applicable to the program is the
responsibility of the program’s management.

      Our audit included examining, on a test basis, evidence about laws and
regulations. The specific laws for which we conducted tests are contained
in:

     •     Public Law 105-119, U.S. Departments of Commerce, Justice,
           and State, the Judiciary and Related Agencies Appropriations
           Acts of 1998;

     •     Public Law 105-277, Making Omnibus Consolidated and
           Emergency Supplemental Appropriations for Fiscal Year 1999,
           U.S. Departments of Commerce and Related Agencies
           Appropriations Act for FY 1999;

     •     Public Law 106-113, U.S. Departments of Commerce, Justice,
           and State, the Judiciary, and Related Agencies Appropriations
           Bill, FY 2000; and the

     •     Government Performance and Results Act of 1993.

      Except for instances of non-compliance identified in the Findings and
Recommendations section of this report, the ODP complied with the laws
cited above. With respect to those transactions not tested, nothing came to
our attention that caused us to believe that the ODP was not in compliance
with the referenced laws.




                                   - 23 -
                                                              APPENDIX I

       OBJECTIVES, SCOPE, AND METHODOLOGY
      We performed our audit in accordance with Government Auditing
Standards and, accordingly, included such tests of the records and
procedures, as we deemed necessary. Our objectives were to determine
whether: (1) the level of support given to grantees was appropriate,
(2) funds awarded were used for their intended purpose, (3) Program
administrative costs were reasonable, and (4) the Department complied with
Government Performance and Results Act requirements as they relate to the
Office of Domestic Preparedness (ODP).

       We reviewed applicable federal laws and regulations, the ODP’s
directives and reports, and other documents related to preparing grantees to
respond to domestic terrorism. We also interviewed the ODP’s headquarters
officials.

       To determine the effectiveness of the ODP’s grant program, we
reviewed ODP operations through January 2002, and the grant amounts
expended through September 2001. We also performed on-site reviews at
13 grantees that were located nationwide and had spent significant portions
of their grants. In addition, we reviewed 3 training providers on-site whose
funding was significant and whose classes were representative of a variety of
training courses. On this basis, we selected the locations listed below for on
site reviews:

State and Local Grantees

City of Memphis, Tennessee
Wayne County, Michigan
Massachusetts Emergency Management
   Agency (Middlesex), Massachusetts
Clark County, Nevada
Fulton County, Georgia
City of Detroit, Michigan
Hillsborough County Board of Commissioners, Florida
San Mateo County Board of Supervisors, California
Fairfax County, Virginia
Westchester County, New York
Dallas County Judge, Texas
Tarrant County, Texas
Cobb County, Georgia




                                    - 24 -
       At each location, we reviewed grant data, determine what contacts
grantee officials had with the ODP, reviewed items purchased with grant
funds, discussed staff training, and reviewed documentation on the grantees’
participation in exercises.

Training Providers Reviewed On-Site

The Center for Domestic Preparedness -- Ft. McClellan, AL.
Community Research Associates -- Champagne, IL and Nashville, TN.
Texas A & M University’s National Emergency Response and Rescue Training
  Center -- Union Station, TX

      At each location reviewed, we: (1) examined accounting records,
personnel costs, fringe benefit costs, other direct costs, inventory, and
indirect costs; and (2) reviewed the activities outlined in the grant
application or planned by the grantee for meeting the grant objectives.

Survey Questionnaire

      To assess the satisfaction of grantees with the quality of federally
funded training received, we issued questionnaires to grantee staff at each
of the 9 grantees we reviewed on-site, and sent questionnaires to all of the
remaining 147 grantees (see footnote number 3). The questionnaires
covered the:

   •   availability of classes and the convenience of training sites;

   •   instructors’ knowledge and preparedness for class;

   •   quality of course materials and any simulations or live demonstrations
       used;

   •   course content, achievement of course objectives, and strengths and
       weakness of the course; and

   •   overall assessment of the class and the grantee’s level of preparedness
       prior to and after taking the class.




                                      - 25 -
                                                                          APPENDIX II

        SCHEDULE OF DOLLAR-RELATED FINDINGS
                            14
QUESTIONED COSTS                                                  AMOUNT
    PAGE

Unusable Equipment                                               $870,899                    13




14
    QUESTIONED COSTS are defined as expenses incurred that do not comply with law or other
official requirements, or are unsupported by adequate documentation, or are unnecessary or
unreasonable for the intended purpose. They can be recoverable or non-recoverable.



                                            - 26 -
                                                           APPENDIX III

             SUMMARY OF TRAINING SURVEY
           NARRATIVE RESPONSES, BY PROVIDER

      The following summary lists the benefits, strengths, and weaknesses
of each of the training providers, as cited by the respondents to our survey
questionnaire. This information, and data on the chart on page 12 of this
report, may be useful to the ODP and the training providers in planning
future classes.


Center for Disaster Preparedness       (71 respondents)

Overall Benefits

   •   Increased awareness of the threat of terrorism and methods of
       delivery.
   •   Better understanding of the properties and effects of nerve agents.
   •   Knowledge of what is required of first responders in entering a
       contaminated area, and about equipment needed to survive
       contamination agents.
   •   Knowledge of decontamination skills and how to deal with unconscious
       patients.
   •   Knowledge of how to prepare for secondary devices.

Greatest Strengths

   •   Courses very well set up, thought out, planned, and organized.
   •   Excellent practical exercises, simulations, tabletop exercises.
   •   Knowledgeable staff, high quality of presentation.
   •   Hands-on, live agent training.
   •   Use of audiovisuals.
   •   Professional treatment of students.
   •   Diversity of students.

Significant Weaknesses

   •   Classes too long.
   •   Training dates limited.
   •   Facilities not accessible.
   •   Content too technical.


                                    - 27 -
  •   Not all instructors uniformly knowledgeable.
  •   Tactics/strategy/background work not covered sufficiently.

Additional Comments

  •   Course resulted in increased knowledge and ability.
  •   Course improved confidence level for operating in and surviving a
      deadly environment.
  •   Attendance results in better preparedness to respond to terrorist
      attack.
  •   Course is recommend for others – all police and firefighters should
      attend.
  •   Provided good background on Middle East conflict.


Community Research Associates (9 respondents)

Overall Benefits

  •   Greater level of awareness and appreciation of dangers of weapons of
      mass destruction.
  •   Better ability to recognize weapons of mass destruction.
  •   Knowledge of when and when not to decontaminate exposed
      individuals.
  •   Better ability to work with a team to identify and control situations.

Greatest Strengths

  •   Good introduction to terrorism concept.
  •   Good information on types of chemicals and biological threats.
  •   Knowledgeable instructor.

Significant Weaknesses

  •   Need more information on detection of biological agents.
  •   Need more field training and actual case studies.

Additional Comments

  •   Very impressed with instructor’s presentation and desire to share with
      the class.




                                    - 28 -
Louisiana State University         (5 respondents)

Overall Benefits

  •     Greater awareness on preparation for weapons of mass destruction.

Greatest Strengths

  •     Knowledgeable instructors.
  •     Use of video trainers.

Significant Weaknesses

  •     Course too basic.
  •     Video trainer should be longer and more complex.
  •     Needs discussion of force protection/support to fire service security.

Additional Comments

None.


New Mexico Institute of Mining and Technology              (51 respondents)

Overall Benefits

  •     Improved ability to respond to incidents.
  •     Greater confidence in entering an area where there is a live agent.
  •     Increased knowledge of types, properties, and capabilities of
        explosives.
  •     Better investigation and isolation skills.

Greatest Strengths

  •     Training materials, instructors, and facilities.
  •     Good overview of agents.
  •     Live demonstrations and hands-on training.
  •     Use of case studies.
  •     Inclusion of scientific explanations.
  •     Use of meter and testing equipment.

Significant Weaknesses

  •     Course should be longer and larger.

                                        - 29 -
  •   More time needed on emergency medical services.

  •   Some instruction time was used for story telling rather than
      instruction.
  •   Cost of travel is questionable since special facilities not needed.

Additional Comments

  •   Excellent overall.
  •   Well-organized.
  •   Course could be consolidated with CDP course to reduce travel cost.
  •   Would recommend course to others.
  •   Instructor should visit other grantees.


Nevada Test Site     (8 respondents)

Overall Benefits

  •   Greater appreciation of dangers posed by terrorists.
  •   Better understanding of radiation hazards.
  •   Knowledge of how to monitor and treat radiation casualties.
  •   Knowledge of interactions with other incident commanders.

Greatest Strengths

  •   Detailed involvement and instruction for radiological emergencies.
  •   Practical, hands on exercises and scenarios.
  •   Raised awareness of the possibilities of terrorist attack.
  •   Material covered was suitable for basic law enforcement having little or
      no training in responding to terrorism.
  •   Knowledgeable instructors.
  •   Facilities and equipment for conducting exercises and simulations.

Significant Weaknesses

  •   Course information ranged from elementary to highly complex; should
      be more focused.
  •   Course centered on management; should focus on use of equipment.
  •   Chemical or biological hazards should be included.
  •   Course was too short; should be lengthened by 1 day.

Additional Comments

  •   Course did not always focus on the participants’ needs or prepare


                                     - 30 -
      them sufficiently for dealing with radiation hazards.


Pine Bluff Arsenal (8 respondents)

Overall Benefits

  •   Knowledge of capabilities and limitations of existing detection
      equipment.
  •   Ability to use latest technology during a response to terrorism using
      weapons of mass destruction.

Greatest Strengths

  •   Quality of instructors.
  •   Presentation of strengths and weaknesses of equipment.
  •   Hands-on activities.
  •   Coverage of a broad base of information and instruments.
  •   Flexibility in scheduling.

Significant Weaknesses

  •   Course and exercises too short.
  •   Need more in-depth training in Draeger civil defense system.
  •   Instructor needed fire department/hazardous materials experience.

Additional Comments

  •   Good detection equipment course.
  •   Good train-the-trainer course, although repetitious.


Texas A&M University (16 respondents)

Overall Benefits

  •   Knowledge of how to approach to risk assessment in an organized
      manner.
  •   Increased awareness of site-specific concerns.
  •   Knowledge of how to conduct surveys, analyze vulnerabilities, and
      assess risks.
  •   Increased understanding of the terrorist mind-set.

Greatest Strengths

  •   Instructor knowledge, presentation, and interaction with others.

                                    - 31 -
  •   Hands-on exercises and site surveys.
  •   Use of real target sites.
  •   Out-of-classroom exercises and preparation for presentations.
  •   Course was geared for all levels – from “rookie” to “seasoned vet.”
  •   Focus on topics not considered in previous training.
  •   Interaction with other jurisdictions.

Significant Weaknesses

  •   Course should be offered more often.
  •   Final exercise was “disheveled.”
  •   Confusion -- staff could not answer questions.
  •   Redundant coverage of basic hazardous materials.
  •   Course could be shorter if prerequisite material were provided ahead
      of time.

Additional Comments

  •   Topics covered should be mandatory for all grantees.




                                   - 32 -
                                                          APPENDIX IV


                  TYPES OF DOMESTIC
               PREPAREDNESS EQUIPMENT


•   Personal Protective Equipment. Equipment that is worn to protect
    the individual from hazardous materials and contamination. Protection
    may vary and is divided into four levels based on the degree of
    protection afforded. Examples include: butyl hoods and gloves,
    encapsulated training suits, and chemical resistant boots.

•   Chemical, Biological, or Radiological Detection Equipment.
    Equipment to monitor, sample, identify, and observe chemical,
    biological, or radiological contamination throughout the area or at
    specific points, and those items to support detection activities.
    Examples include: detection kits, chemical agent detectors and
    alarms, and self-reading dosimeters.

•   Chemical, Biological, or Radiological Decontamination
    Equipment. Equipment and material used to clean, remediate,
    remove, or mitigate chemical or biological contamination. Examples
    include: decontamination showers, atropine auto-injectors, and
    oxygen masks.

•   Communications Equipment. Equipment and systems providing
    connectivity and electrical interoperability between local and
    interagency organizations to coordinate Weapons of Mass Destruction
    response operations. Examples include: encrypted radios and hand-
    held communication systems.




                                  - 33 -
                             APPENDIX V

OFFICE OF JUSTICE PROGRAMS RESPONSE
        TO THE DRAFT REPORT




               - 34 -
- 35 -
- 36 -
- 37 -
                                                           APPENDIX VI

    OFFICE OF THE INSPECTOR GENERAL, AUDIT
      DIVISION, ANALYSIS AND SUMMARY OF
    ACTIONS NECESSARY TO CLOSE THE REPORT

Recommendation Number:

1. Resolved. This recommendation can be closed when we receive
   documentation to support that the Office for Domestic Preparedness
   (ODP) has: (1) continued its efforts to ensure that states submit
   applications for funds from prior appropriations and (2) established
   controls to ensure applications for future funding are being submitted as
   expeditiously as possible. The Office of the Inspector General (OIG) also
   acknowledges your efforts in: (1) establishing application deadlines for
   FY 2002 and future-year funding, and (2) coordinating the provision of
   follow-up support to territories and states who demonstrate difficulty in
   meeting the established application deadlines.

2. Resolved. The Assistant Attorney General, Office of Justice Programs
   stated in the response to the draft report that ODP has established an
   alternative procurement process through agreements with the Defense
   Logistics Agency and the Marine Corps Systems Command. However,
   this procurement process was already in place during the audit but was
   not being used extensively by grantees. This recommendation can be
   closed when we receive documentation to support that grantees have
   been informed of and encouraged to use this method, or additional
   methods that will ensure grantees use available funds as quickly as
   possible.

3. Resolved. This recommendation can be closed when we receive
   information documenting the Domestic Preparedness Equipment
   Technical Assistance Program and the support it provides grantees in
   properly distributing and maintaining specialized equipment, as well as
   obtaining adequate training to operate it.

4. Resolved. This recommendation can be closed when we receive
   documentation supporting that OJP has remedied the questioned costs of
   $870,899 for equipment that was unavailable or unusable.




                                   - 38 -
5. Resolved. This recommendation can be closed when we receive
   documentation to support that the ODP has: (1) provided grant funding
   for exercise initiatives and (2) developed a State and Local Exercise
   Support Program to ensure grantees maintain their state of readiness.

6. Resolved. This recommendation can be closed when we receive
   documentation to support that the ODP has developed performance
   standards for evaluating whether grant support is improving grantees’
   capability to respond to terrorist incidents. The OIG also acknowledges
   your efforts in: (1) developing a process to update information received
   from the Three-Year Statewide Domestic Preparedness Strategies from
   all 50 states, the District of Columbia, the Commonwealth of Puerto Rico,
   and the U.S. territories, and (2) implementing an exercise program
   designed to enable jurisdictions to test their response capability through
   practical exercises.




                                   - 39 -
